No.
In The

Supreme Court of tfyr Umtett Stairs
The States of California, Colorado, Connecticut, Delaware, Hawaii, Illinois,
Iowa, Massachusetts, Michigan, Minnesota, Nevada, New Jersey, New York,
North Carolina, Oregon, Rhode Island, Vermont, Virginia, and Washington,
Andy Beshear, the Governor of Kentucky, and the District of Columbia,
Petitioners,
V.

The State of Texas, et al.
Respondents.

On Petition for a Writ of Certiorari to the United States Court of Appeals
for the Fifth Circuit
MOTION TO EXPEDITE CONSIDERATION OF THE PETITION FOR A
WRIT OF CERTIORARI AND TO EXPEDITE CONSIDERATION OF THIS
MOTION

Michael J. Mongan
Solicitor General
Samuel P. Siegel*
Helen H. Hong
Deputy Solicitors General
Amari L. Hammonds
Associate Deputy Solicitor General
*Counsel of record

Xavier Becerra
Attorney General of California
Kathleen Boergers
Supervising Deputy Attorney General
Nimrod P. Elias
Neli N. Palma
Deputy Attorneys General
\

California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam. siegel@doj. ca. gov
Counsel for the State of California

January 3, 2020
{Additional counsel on signature pages)

1
The States of California, Colorado, Connecticut, Delaware, Hawaii, Illinois,
Iowa, Massachusetts, Michigan, Minnesota (by and through its Department of
Commerce), Nevada, New Jersey, New York, North Carolina, Oregon, Rhode Island,
Vermont, Virginia, and Washington, Andy Beshear, the Governor of Kentucky, and
the District of Columbia hereby move, pursuant to Supreme Court Rule 21, for
expedited consideration of the petition for a writ of certiorari, filed today, to the
United States Court of Appeals for the Fifth Circuit.

Because of the practical

importance of the questions presented for review and the pressing need for their
swift resolution by this Court, petitioners respectfully request that the Court
consider the petition on an expedited schedule described below and, if the Court
grants the petition, that it set an expedited merits briefing and oral argument
schedule so that it may decide the case this Term. Petitioners also hereby move for
expedited consideration of this motion.
STATEMENT
1. The Patient Protection and Affordable Care Act (ACA) affects the health
and well-being of every American and has transformed our Nation’s healthcare
system.

One of its hundreds of provisions is 26 U.S.C. § 5000A.

As originally

enacted, that provision required most Americans either to maintain a minimum
level of healthcare coverage or to pay a specified amount to the Internal Revenue

1 Petitioners understand that the U.S. House of Representatives, which intervened
in the court of appeals to defend the Affordable Care Act, is also filing a petition for
a writ of certiorari seeking review of the Fifth Circuit’s decision, and that it is
similarly moving to expedite the Court’s consideration of its petition.

2

Service.

This Court upheld that provision as an exercise of Congress’s taxing

power, affording individuals a “lawful choice” between buying insurance or paying
the tax. Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519, 574 (2012) (NFIB). In
2017, Congress amended Section 5000A to set at zero the amount of the tax imposed
on those who choose not to maintain healthcare coverage—thus rendering the
minimum coverage provision effectively unenforceable.

See Pub. L. No. 115-97,

§ 11081, 131 Stat. 2054, 2092 (2017). At the same time, Congress left every other
provision of the ACA in place.
2. Two months after Congress voted to reduce Section 5000A’s alternative tax
to zero, the plaintiffs here—two private citizens and a group of States—filed suit.
Pet. App. 10a. They argued that, in light of this Court’s holding in NFIB and the
2017 amendment, Section 5000A could no longer be construed as a tax, and that
Section 5000A(a) was now an unconstitutional stand-alone command to buy health
insurance. Id. at 10a-11a. They also argued that Section 5000A(a) could not be
severed from any other part of the ACA. Id. at 11a. In the district court, the federal
defendants agreed that the minimum coverage provision was now unconstitutional,
and that it could not be severed from the ACA’s guaranteed-issue, pre-existing
exclusion ban, and community-rating requirements. Id. But they argued that it
could be severed from the remainder of the Act. Id. Sixteen States and the District
of Columbia intervened to defend the ACA. Id.
On December 14, 2018, the district court granted partial summary judgment
and entered declaratory relief in the plaintiffs’ favor. Pet. App. 11a-12a; 163a-231a.

3

It held that (1) the individual plaintiffs had standing, id. at 184a; (2) setting the
alternative tax amount specified in Section 5000A(c) at zero transformed Section
5000A(a) into an unconstitutional command to purchase health insurance, id. at
189a-196a, 203a-204a; and (3) Section 5000A(a) could not be severed from the
remainder of the ACA, which must therefore be invalidated in its entirety, id. at
231a. In a separate order, the district court entered a partial final judgment under
Federal Rule of Civil Procedure 54(b) but stayed the effect of that judgment pending
appeal. Id. at 114a, 162a.2
On December 18, 2019, a divided panel of the Fifth Circuit affirmed in part
and vacated in part. Pet. App. la-113a. The panel majority agreed with the district
court that the individual plaintiffs have standing to challenge Section 5000A(a) and
further held that the state plaintiffs have standing. Id. at 29a-39a. The majority
also affirmed the district court’s conclusion that Section 5000A(a) must now be
interpreted as an unconstitutional “command to purchase insurance,” in light of
Congress’s decision to reduce the amount of the alternative tax to zero. Id. at 45a.
But it vacated the district court’s judgment as to severability, concluding that the
district court’s analysis on that point was “incomplete.” Id. at 65a; see id. at 52a-

2 After the notices of appeal were filed, the U.S. House of Representatives and the
States of Colorado, Iowa, Michigan, and Nevada successfully moved to intervene in
the appeal to defend the ACA. Pet. App. 12a & n.12. On the day the appellants’
opening briefs were due, the federal defendants submitted a letter to the Fifth
Circuit indicating that the Department of Justice had “determined that the district
court’s judgment should be affirmed” in its entirety. C.A. Dkt. No. 514887530 (Mar.
25, 2019).

4
70a. It remanded with directions to “conduct a more searching inquiry into which
provisions of the ACA Congress intended to be inseverable from the individual
mandate.” Id. at 68a.3
Judge King dissented.

Pet. App. 73a-113a.

She would have held that no

plaintiff had standing, id. at 76a-85a, and that the minimum coverage provision
remains “constitutional, albeit unenforceable,” id. at 74a; see also id. at 91a-98a.
While she agreed that there were “serious flaws” in the district court’s severability
analysis, id. at 73a, she believed remand was unnecessary, id. at 98a. In her view,
the severability analysis in this case is “easy”: by removing Section 5000A’s “only
enforcement mechanism” and leaving the rest of the ACA in place, Congress
“plainly] indicated] that [it] considered the coverage requirement entirely
dispensable and, hence, severable.” Id. at 73a.
ARGUMENT
1. Expedited consideration of the petition for a writ of certiorari is warranted.
As explained in the petition (at 16-19), the lower courts’ actions have created
uncertainty about the future of the entire Affordable Care Act, and that uncertainty
threatens adverse consequences for our Nation’s healthcare system, including for
patients, doctors, insurers, and state and local governments.
The district court held that the- minimum coverage provision in Section
5000A(a) is inseverable from every other provision of the ACA, Pet. App. 231a—a

3 The panel majority also instructed the district court to consider the federal
defendants’ new arguments about the proper scope of relief. Pet. App. 70a-72a.

5

law that spans “10 titles [and] over 900 pages” and regulates a fifth of the Nation’s
economy.

NFIB, 567 U.S. at 538-539; see also D.Ct. Dkt. 91-2 at 164.4 As the

federal respondents recognized below, the district court’s decision contributed to
“uncertainty in the healthcare sector” and in “other areas affected by the Affordable
Care Act.”

C.A. Dkt. 514906506 at 3 (Apr. 8, 2019).

The court of appeals

exacerbated that uncertainty when it affirmed the district court’s holdings as to
standing and the merits but remanded for a protracted inquiry into the severability
question—while noting that “[i]t may still be that none of the ACA is severable from
the individual mandate, even after this inquiry is concluded.” Pet. App. 69a. The
remand directed by the court of appeals would undoubtedly “prolong this litigation
and the concomitant uncertainty over the future of the healthcare sector.” Id. at
74a (King, J., dissenting).
That uncertainty is especially problematic because a wide range of fiscal,
regulatory, commercial, and individual decisions hinge on provisions of the ACA.
Each year, millions of Americans make life-changing decisions about whether to
move, change jobs, start a family, or care for an elderly parent in reliance on the
ACA’s patient protections and the greater access to affordable healthcare coverage
it provides.6 States and local governments rely on the availability of tens of billions
of dollars that the Act directs to them each year when setting their budgets, a
4 Citations to “D.Ct. Dkt.” are to the docket in N.D. Tex. Case No. 4:18-cv-167-0.
5 See Amicus Br. of Small Bus. Majority Found., C.A. Dkt. No. 514895946 (Apr. 1,
2019); Amicus Br. of Nat’l Women’s Law Center, et al., C.A. Dkt. No. 514897602
(Apr. 1, 2019); D.Ct. Dkt. 91-1 at 13-22.

6

process that can take months or even years. See C.A. Dkt. No. 514820298 at 21-22,
28-32 (Feb. 1, 2019) (declarations of health policy experts and government health
officials in support of state petitioners’ motion to expedite appeal).6 State regulators
begin working with insurers to set health insurance premiums long before those
premium amounts take effect. Id. at 17, 25, 37. And when insurers want to develop
and market an innovative product or change the way their service-provider
networks are designed, their planning can start up to 24 months in advance. Id. at
25; see also Amicus Br. of America’s Health Ins. Plans, C.A. Dkt. No. 514896554 at
14 (Apr. 1, 2019) (“health insurance providers . . . require significant lead time to
develop strategies and offerings”).
Prolonged uncertainty about whether or to what extent important provisions of
the ACA might be invalidated substantially complicates these and other important
choices. That uncertainty has already led some States to begin planning for the
possibility that the entire ACA might be declared invalid, and to examine additional
measures that might be necessary to stabilize their healthcare markets in that
event. C.A. Dkt. No. 514820298 at 32-33, 36 (Feb. 1, 2019). The shadow cast by the
decisions below may also negatively affect the health insurance market in future
years by, for example, causing insurers to increase premiums or withdraw from the

6 See also D.Ct. Dkt. 91-1 at 33-66 (States that intervened in the district court
would lose $608.5 billion in federal Medicaid and Marketplace spending between
2019 and 2028 if district court’s decision were affirmed); Amicus Br. of Counties and
Cities, C.A. Dkt. No. 514897439 at 20-22 (describing healthcare funding as a
complex multi-year process between federal, state, and local governments).

7

Exchanges altogether. See, e.g., id. at 16-17, 20, 26, 32-33, 36-37; D.Ct. Dkt. 91-1 at
8-13.
As the federal respondents argued below, the “[p]rompt resolution of this case
will help reduce [the] uncertainty in the healthcare sector” that has resulted from
this litigation. C.A. Dkt. 514906506 at 3 (Apr. 8, 2019). Were the Court to consider
and grant the petition and hear argument in the ordinary course, however, there is
little chance that it would resolve this dispute for at least another year. In the
meantime, participants in our healthcare system would have to make critical
choices—indeed,

life-changing

ones—without

knowing

whether

important

provisions of the ACA will be invalidated. By expediting its consideration of the
petition and resolving the case this Term, this Court would allay that uncertainty
and improve confidence in the markets about the future of the healthcare sector.
2. In light of the practical importance of this Court deciding this case before
the end of the current Term, petitioners respectfully move for expedited
consideration of the petition. Petitioners propose that amici curiae be directed to
file briefs in support of the petition by January 17, 2020 and that respondents be
directed to file responses to the petition by February 3, 2020, 31 days from the filing
of the petition, with any amicus curiae briefs in support of respondents due on the
same day. Petitioners hereby waive the 14-day waiting period for reply briefs under
Rule 15.5, which would allow for the petition to be distributed on February 5, 2020
and considered at the Court’s February 21, 2020 conference. If the Court adopted
that schedule, petitioners would file their reply briefs in support of the petition by

8

February 12, 2020. If the Court grants the petition at the February 21 conference,
petitioners further request that oral argument be held on April 29, 2020 or at a
special sitting in May 2020.
Alternatively, if the Court prefers to consider the petition at its January 24,
2020 conference to facilitate the completion of plenary review this Term, petitioners
propose that amici curiae supporting petitioners be directed to file their briefs by
January 15, 2020; that respondents be directed to file responses to the petition by
January 21, 2020; and that amici curiae supporting respondents be directed to file
their briefs by January 21, 2020. If the Court adopted that schedule, petitioners
would file their reply briefs by noon eastern time on January 23, 2020. If the Court
grants the petition at the January 24 conference, petitioners further request that
oral argument be held on April 29, 2020.
3. If the Court grants the petition at either the January 24 or February 21
conference, petitioners respectfully request that the Court set an expedited merits
briefing schedule.
Should the Court grant the petition on February 21 and set the case for oral
argument in April, petitioners would propose the following schedule:
March 16, 2020

Petitioners’ opening briefs due

April 6, 2020

Respondents’ briefs due

April 20, 2020

Petitioners’ reply briefs due

9
Should the Court grant the petition on February 21 and set the case for oral
argument at a special sitting in May, petitioners would propose the following
schedule:
March 20, 2020

Petitioners’ opening briefs due

April 20, 2020

Respondents’ briefs due

May 8, 2020

Petitioners’ reply briefs due

Should the Court grant the petition on January 24, 2020 and set the case for
oral argument in April, petitioners would propose the following schedule:
February 24, 2020

Petitioners’ opening briefs due

March 23, 2020

Respondents’ briefs due

April 17, 2020

Petitioners’ reply briefs due

4. Petitioners also move for expedited consideration of this motion, so that the
Court may consider it at the January 10, 2020 conference. Petitioners respectfully
request that the Court direct respondents to respond to this motion by January 7,
2020.
5. Petitioners have conferred with counsel for the respondents and asked for
their positions on the relief requested in this motion, including the request for
expedited consideration of this motion.

Counsel for the state respondents and

counsel for the individual respondents stated that they were opposed to all of the
relief requested in the motion. Counsel for the federal respondents did not respond
with their position in time for it to be included in this motion.

10
CONCLUSION
For the reasons stated, petitioners respectfully request that the Court
expedite consideration of this motion, expedite consideration of the petition for a
writ of certiorari based on either of the schedules proposed above, and, if the Court
grants the petition, set an expedited schedule for merits briefing and oral argument
that enables the Court to hear and decide the case this Term.
Respectfully submitted,
Is/ Samuel P. Siegel
Xavier Becerra
Attorney General of California
Michael J. Mongan
Solicitor General
Samuel P. Siegel
Helen H. Hong
Deputy Solicitors General
Kathleen Boergers
Supervising Deputy Attorney General
Nimrod Pitsker Elias
Neli N. Palma
Deputy Attorneys General
Amari L. Hammonds
Associate Deputy Solicitor General
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov
Counsel for the State of California
(Additional counsel listed on the following pages)

11

William Tong
Attorney General of Connecticut
Joseph Rubin
Assistant Deputy Attorney General
Counsel for the State of Connecticut
Philip J. Weiser
Attorney General of Colorado
Eric R. Olson
Solicitor General
Counsel for the State of Colorado

Maura Healey
Attorney General of Massachusetts
Stephen B. Vogel
Assistant Attorney General
Counsel for the Commonwealth of
Massachusetts
Dana Nessel
Attorney General of Michigan
Fadwa A. Hammoud
Solicitor General
Counsel for the State of Michigan

Kathleen Jennings
Attorney General of Delaware
Ilona Kirshon
Deputy State Solicitor
Jessica M. Wiley
David J. Lyons
Deputy Attorneys General
Counsel for the State of Delaware

Keith Ellison
Attorney General of Minnesota
Scott Ikeda
Assistant Attorney General
Counsel for the State of Minnesota, by
and through its Department of
Commerce

Clare E. Connors
Attorney General of Hawaii
Robert T. Nakatsuji
First Deputy Solicitor General
Counsel for the State of Hawaii

Aaron D. Ford
Attorney General of Nevada
Heidi Parry Stern
Solicitor General
Counsel for the State of Nevada

Kwame Raoul
Attorney General of Illinois
Jane Elinor Notz
Solicitor General
David F. Buysse
Deputy Chief, Public Interest Division
Matthew V. Chimienti
Assistant Attorney General, Special
Litigation Bureau
Counsel for the State of Illinois

Gurbir S. Grewal
Attorney General of New Jersey
Matthew J. Berns
Assistant Attorney General
Marie Soueid
Deputy Attorney General
Counsel for the State of New Jersey

Thomas J. Miller
Attorney General of Iowa
Nathan Blake
Deputy Attorney General
Counsel for the State of Iowa

12
Letitia James
Attorney General of New York
Barbara D. Underwood
Solicitor General
Steven C. Wu
Deputy Solicitor General
Lisa Landau
Bureau Chief, Health Care Bureau
Elizabeth Chesler
Assistant Attorney General, Health
Care Bureau
Counsel for the State of New York
Joshua H. Stein
Attorney General of North Carolina
Matthew W. Sawchak
Solicitor General
Ryan Y. Park
Deputy Solicitor General
Sripriya Narasimhan
Deputy General Counsel
Counsel for the State of North
Carolina
Ellen F. Rosenblum
Attorney General of Oregon
Benjamin Gutman
Solicitor General
Counsel for the State of Oregon
Peter F. Neronha
Attorney General of Rhode Island
Michael W. Field
Maria R. Lenz
Assistant Attorneys General
Counsel for the State of Rhode Island
Thomas J. Donovan, Jr.
Attorney General of Vermont
Benjamin D. Battles
Solicitor General
Counsel for the State of Vermont

Mark R. Herring
Attorney General of Virginia
Toby J. Heytens
Solicitor General
Counsel for the Commonwealth of
Virginia
Robert W. Ferguson
Attorney General of Washington
Jeffrey G. Rupert
Chief, Complex Litigation Division
Jeffrey T. Sprung
Assistant Attorney General
Counsel for the State of Washington
La Tasha Buckner
General Counsel
S. Travis Mayo
Chief Deputy General Counsel
Taylor Payne
Deputy General Counsel
Counsel for Andy Beshear, Governor of
Kentucky
Karl A. Racine
Attorney General for the District of
Columbia
Loren L. Alikhan
Solicitor General ,
Carl J. Schifferle
Acting Deputy Solicitor General
Counsel for the District of Columbia

&EstJJ941
TA

E-Mail Address:
briefs@wilsonepes.com

775 H Street, N.E.
Washington, D.C. 20002

{0V INC

Web Site:
www.wilsonepes.com

Tel (202) 789-0096
Fax (202) 842-4896

No.
The States of California, Colorado, Connecticut,
Delaware, Hawaii, Illinois, Iowa, Massachusetts,
Michigan, Minnesota, Nevada, New Jersey, New York,
North Carolina, Oregon, Rhode Island, Vermont,
Virginia, and Washington, Andy Beshear, the
Governor of Kentucky, and the District of Columbia,
Petitioners,
v.
The State of Texas, et al.,
Respondents.

AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on January 3, 2020, one (1) copy of the MOTION TO EXPEDITE
CONSIDERATION OF THE PETITION FOR A WRIT OF CERTIORARI AND TO EXPEDITE
CONSIDERATION OF THIS MOTION in the above-captioned case were served, as required by
U.S. Supreme Court Rules 21.3 and 29.5(c), on the following:
Douglas N. Letter
General Counsel
Office of the General Counsel
U.S. House of Representatives
219 Cannon House Office Building
Washington, D.C. 20515
(202) 225-9700
Counsel for the U.S. House of Representatives
Noel J. Francisco
Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW Room 5616
Washington, D.C 20530-0001
(202) 514-2217
Counsel for the United States ofAmerica, et al.

Kyle D. Hawkins
Solicitor General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas, 78711-2548
(512) 936-1700
Counsel for the State of Texas, et al.
Robert Henneke
Texas Public Policy Foundation
Center for the American Future
901 Congress Avenue
Austin, Texas 78701
(512) 472-2700
Counsel for Neill Hurley and John Nantz

The following email addresses have also been served electronically:
Sam.Siegel@doj.ca.gov
Douglas.Letter@mail.house.gov
SupremeCtBriefs@usdoj .gov
Kyle.Hawkins@oag.texas.gov
rhenneke@texaspolicy.com

Vi

lA/J .

—

Irene M. Carr
Wilson-Epes Printing Company, Inc.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096
Sworn to and subscribed before me this 3rd day of January 2020.

Colin Casey HjyiGAN
Notary Public
District of Columbia
My commission expires April 14, 2022.

44^:,.
- 0/

5

— (f) *Stf>

Z. 4 .‘y o|?
- o \\ -e. a ^

.

"/,?00

'

q\'!j

